SEMIANNUAL REPORT
to the United States Congress




                         October 1, 2013–March 31, 2014
                                            Report # 49
Amtrak’s Board of Directors: (from left to right) Albert DiClemente, Christopher Beall, Jeffrey Moreland,
Anthony Coscia, Joe Boardman, Yvonne Burke, and Tom Carper with Paul Nissenbaum, Federal Railroad
                               Administration. Not pictured, Anthony Foxx, Secretary of Transportation.
Table of Contents
From the Inspector General                                                         i
OIG Profile                                                                       1
Significant Activities: Audits, Inspections and Evaluations, and Investigations   5
Actions to Continuously Improve OIG Operations                                    19
OIG Organization                                                                  22
Appendices
    Appendix 1      Fiscal Year 2014 Performance Measures                         25
    Appendix 2      Questioned Costs                                              26
    Appendix 3      Funds Put to Better Use (Audits)                              27
    Appendix 4      Audit Reports and Testimony                                   28
    Appendix 5      Recommendations for Which Corrective Action Not
                    Complete (Audits)                                             30
    Appendix 6      Recommendations for Which Corrective Action Not
                    Complete (Evaluations)                                        33
    Appendix 7      Review of Legislation, Regulations, and Major Policies        36
    Appendix 8      Peer Review Results                                           38
    Appendix 9      Glossary of Terms, Acronyms, and Abbreviations                39
    Appendix 10     Reporting Requirements Index                                  41
OIG Mission and Contact Information                                               42
                       Carlifornia Zepher
Photo: Amtrak Corporate Communications
                             From the In
                                       nspector General




                     National Railroad Passeng ger Corporration
                           Office
                           O       of In
                                       nspector G
                                                General
 

I am pleeased to sub
                   bmit my firsst Semiannu  ual Report too the Unitedd States Conggress as 
Inspectoor General ffor Amtrak  k. This reporrt highlightts the auditt, evaluationn, and 
investigative activiities of the A
                                 Amtrak Offfice of Inspeector Generral for the ssix months 
ending MMarch 31, 22014, pursuant to the Inspector G   General Act of 1978, as amended.

Throughhout this seemiannual p period, our audit and  evaluation work addrressed issuees 
intended
       d to improv ve the efficiiency and effectivenesss of Amtrak  k’s program
                                                                              ms and 
operatio
       ons. Our isssued products addresssed opportu   unities to reeduce losses on food aand 
beverage sales, man nagement o  of the Gatew
                                           way Prograam’s concreete casing p  project, and
                                                                                         d an 
assessm
      ment of Amttrak’s progrress implem  menting thee Passengerr Rail Investtment and 
Improveement Act o of 2008. Wee discuss thhese work pproducts in this report.. 

During tthis period,, our investtigative actiivities contiinued to prrevent and deter fraudd, 
waste, a
       and abuse th  hrough an oongoing ou  utreach prog  gram and tto hold acco
                                                                               ountable thhose 
who souught to harm  m Amtrak’ss programss and operaations. The iinvestigativ  ve activitiess 
discusseed in this reeport includ
                                de theft, fra
                                            audulent contractor prractices, andd Amtrak 
employeee integrity y/misconduct issues.  

It is also
         o importantt to note ourr appreciation for the significant contributio
                                                                              ons of the 
former IInspector GGeneral, Ted d Alves. Hiss accomplisshment in eenhancing tthe operatio ons 
of the Office of Insp
                    pector Geneeral and esttablishing eeffective woorking relationships wwith 
the Amttrak Board o  of Directorss and manaagement weere particullarly notew worthy.   

In the m
       months ahea ad, we will continue to
                                         o focus on issues of im
                                                               mportance to o Amtrak 
managem ment and th  he Board in
                               n meeting th
                                          heir stewarrdship and fiduciary rresponsibiliities, 
supportiing Congreessional oveersight, and
                                         d providingg informatioon to the pu
                                                                           ublic. We h
                                                                                     hope 
that you
       u find this reeport inform
                                mative. 

 

Tom HHoward 
             neral 
Inspecctor Gen
                             10 G Street, NE, SSuite 3W‐300,  Washington, D
                                                                          D.C. 20002 
 
                   Cardinal at Hawks Nest, WV
     Photo: Amtrak Corporate Communications




ii
OIG Profile
Authority, Mission, Vision, and
Focus Areas
Authority
The Inspector General Act of 1978 (Public Law 95-452, 5 U.S.C. Appendix 3), as
amended in 1988 (P.L. 100-504), established the Office of Inspector General (OIG) for
Amtrak to consolidate investigative and audit resources into an independent
organization headed by the Inspector General to promote economy, efficiency, and
effectiveness; and to detect and prevent fraud, waste, and abuse. Subsequently, the
Inspector General Reform Act of 2008 (P.L. 110-409) amended and strengthened the
authority of the inspectors general.

Mission
To provide independent, objective oversight of Amtrak’s programs and operations
through audits, inspections, evaluations, and investigations focused on recommending
improvements to Amtrak’s economy, efficiency, and effectiveness; preventing and
detecting fraud, waste, and abuse; and providing Congress, Amtrak management, and
Amtrak’s Board of Directors with timely information about problems and deficiencies
relating to Amtrak’s programs and operations.

Vision
Amtrak OIG will operate as a model OIG, generating objective and sophisticated
products that add value. Utilizing modern infrastructure and effective support systems,
and following efficient, disciplined processes that meet the standards of the
accountability community, our diverse and talented team will work professionally with,




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   1
OIG Profile



   but independently from, Amtrak management (See OIG Strategic Plan Fiscal Years
   2013-2017).1

   Focus Areas
   We concentrate our work in audits and evaluations, and investigations on seven focus
   areas. Depending on the work completed during a semiannual period, we may report
   on issues in one or more of these focus areas listed below.2

   Acquisition and Procurement. These activities include procurement policies,
   procedures, and practices across acquisition and procurement phases of planning,
   project selection, and contract award, implementation, and closeout.

   Train Operations and Business Management. These activities are associated with
   operating Amtrak’s passenger service, including delivering safe and cost-effective
   service.

   Governance. This includes a system of management controls—including policies,
   processes, and people—which serves the needs of shareholders and other stakeholders
   by directing and controlling management activities with good business savvy,
   objectivity, accountability, and integrity.

   Information Technology (IT). IT management encompasses processes, policies, and
   procedures to acquire and use IT tools to improve labor and asset productivity and
   deliver safe and reliable customer service.

   Human Capital Management. This encompasses the development and implementation
   of human capital policies, procedures, and practices across the corporation.




   1
     OIG-SP-2013-017, Strategic Plan Fiscal Years 2013-2017,
   http://www.amtrakoig.gov/sites/default/files/reports/strategic_plan2.pdf
   2
     For complete definitions of these focus areas, see Annual Audit, Inspection, and Evaluation Plan Fiscal Year 2014.
   http://www.amtrakoig.gov/sites/default/files/reports/fy2014_final_audit_and_evaluation_plan.pdf.
   2           Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
Safety and Security. These programs and activities are related to the safety and security
of employees and the train-riding public.

Asset Management. These activities are related to the utilization and maintenance of
Amtrak’s assets, including train sets, support equipment, inventory, and real property.




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   3
                                                            Amtrak Station at Kirkwood, MO
                                                   Photo: Amtrak Corporate Communications




4   Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                           Significant Activities




Significant Activities:
Audits, Inspections and
Evaluations, and Investigations
During this reporting period, we issued three audit reports and
one testimony and provided 10 investigative summaries to
management. During the next six months, we expect to
complete work in a number of our work focus areas. (To see the
full audit reports and testimony, access our website,
www.amtrakoig.gov.)


Acquisition and Procurement
Acquisition and Procurement: Gateway Program’s Concrete Casing Project
Progressing Well; Cost Increases Will Likely Exceed Project Budget
(Audit Report No. OIG-A-2014-004, February 11, 2014)
Amtrak has established an effective project management framework for managing the
concrete casing project. We did not identify any significant risks related to the project’s
scheduled completion or the contractor’s performance. The company is aware that
project costs are exceeding initial estimates and is monitoring the potential for further
cost escalation.

These are some of the highlights of our review:

      An executive steering committee has been established to oversee project
       implementation.

      A construction management firm has been hired to assist in overseeing the
       project’s implementation.

       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   5
Significant Activities



          The commercial developer
           has identified about
           $9 million in additional cost
           increases that are being
           reviewed by Amtrak.

          The Long Island Rail Road
           has identified about
           $5.3 million in support costs
           that were not included in the
           project budget.

          Other cost increases are likely
           as the project progresses.

   To enhance Amtrak’s management
   of the concrete casing project, we
   recommend that the Vice President,
   Northeast Corridor Infrastructure
   and Investment Development
   (1) finalize and adopt the draft
   charter for the executive steering
   committee; and (2) develop a risk
   mitigation plan to address potential    Gateway program’s concrete casing project underway
   cost increases and funding sources.                                     Photo: Amtrak OIG
   The Vice President, Northeast
   Corridor Infrastructure and Investment Development concurred with our
   recommendations.

   Production of Long Distance Single Level Rail Cars
   November 2013 (Investigations)
   We received an allegation of numerous improprieties regarding the contracting of
   25 sleeper cars, 25 dining cars, 25 baggage/dorm cars, and 55 baggage cars totaling
   $298,132,648. Of the 11 improprieties alleged, we did not find any substantial
   information or evidence indicating potential fraud or other criminal violations. Amtrak
   management addressed and resolved potential contract or production irregularities. We
   6         Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                          Significant Activities



recommended to management that they continue to monitor the progress to address the
initial use of non-conforming parts in the production process; check the welding
credentials of welders who worked on the prototype cars and welders on the rail cars
when full production begins in 2014; and to monitor the contractor’s compliance with
the Buy America Act.

Ongoing Work—Acquisition and Procurement
Capital Program Management. Our objective is to determine the effectiveness of
Amtrak’s policies and procedures for managing the execution of capital projects with a
focus on best practices.

Procurement Process. Our objective is to provide an assessment of Amtrak’s
procurement function in four areas: (1) organizational alignment and leadership,
(2) policies and processes, (3) human capital, and (4) knowledge and information
management, with a focus on best practices.

Survey of Issues Related to the North East Corridor Infrastructure Projects. We are
actively monitoring phases one and two of the Gateway project. In April we will initiate
a review of the raceway project focusing on the company’s oversight of cost, schedule,
and performance issues. The successful accomplishment of Northeast Corridor ongoing
and planned infrastructure projects in an effective and efficient manner are of high
priority to the corporation, the Board of Directors, the Congress, and other stakeholders.
Our overall objective is to keep apprised of Northeast Corridor infrastructure planning
and implementation issues. Our specific objective is to provide stakeholders timely
information and recommendations, where appropriate, based on an independent
review of emerging issues.

Alstom-Acela Spare Parts. Our objective is to assess the adequacy of contract oversight,
administration, and contractor performance for the Alstom contract. We will focus on
the company’s oversight of cost, schedule, and performance issues.




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   7
Significant Activities




   Train Operations and Business Management
   Food and Beverage Service: Potential Opportunities to Reduce Losses
   (Audit Report No. OIG-A-2014-001, October 31, 2013)
   Amtrak reduced food and beverage service losses from a reported $105 million in
   FY 2006 to $72 million in FY 2012 by making incremental changes to the food and
   beverage business model. We estimate that losses could be further reduced by about
   $10.5 million annually by making additional incremental changes to the business
   model. For example, aligning onboard staffing on long-distance routes with seasonal
   changes in ridership could have reduced FY 2012 labor costs by an estimated
   $6.9 million.

   Outsourcing food and beverage could substantially reduce costs—we estimate that this
   could reduce labor costs by $51.4 million to $60.5 million annually. However, this
   option would significantly impact the workforce of about 1,200 personnel. Some
   implementation costs, such as contributions to railroad retirement and insurance, could
   reduce savings by about $3.5 million to $5.1 million, and other qualitative factors, such
   as the safety and security responsibilities of onboard personnel, would also need to be
   assessed.

   We also noted that route managers lack key information to effectively manage the food
   and beverage program, such as cost and revenue by train.

   To reduce food and beverage losses, we recommended piloting outsourcing and
   options to increase efficiency and improve data management. The President and Chief
   Executive Officer agreed with the spirit of our recommendations. He also noted that in
   evaluating each of our recommendations, the company must assess the impact of any
   potential changes on customer satisfaction, ridership, revenue, and the company brand.

   Food and Beverage Service: Progress and Opportunities to Reduce Operating Losses
   (Testimony No. OIG-T-2014-002, November 14, 2013)
   On November 14, 2013, former Inspector General Ted Alves testified on our October 31,
   2013 report and recommendations related to improving Amtrak’s food and beverage
   services. Mr. Alves’ testimony focused on two areas: (1) Amtrak’s progress in reducing
   losses; and (2) opportunities to further reduce losses by improving business practices,
   processes, and management information.
   8        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                          Significant Activities



Losses on Amtrak’s food and beverage service have been a long-standing issue. From
FY 2006 through FY 2012, the food and beverage service incurred direct operating losses
of more than $609 million—with the overwhelming majority of the losses incurred on
long-distance routes. During that time, Amtrak’s actions allowed it to reduce annual
food and beverage operating losses by a reported $33.2 million.

Mr. Alves’ testimony detailed six opportunities to improve business practices and
processes, which we conservatively estimate have the potential to reduce losses by at
least $10.5 million annually.

      1. Align staffing of dining cars to ridership.

      2. Monitor and manage the sales performance of lead service attendants.

      3. Shorten reporting times for onboard service personnel.

      4. Align service to the needs of each route.

      5. Ensure that the cost of complimentary items is recovered.

      6. Reduce spoilage.

Mr. Alves’ testimony also noted that the food and beverage accounting process lacks
the capability to generate the information needed to efficiently and effectively operate
the service, including route managers lacking labor cost and revenue data by train and
departure date. To achieve profit-and-loss accounting for the service, cost and revenue
data must be more complete and accurate. Further, Mr. Alves noted that to achieve a
more significant impact on financial performance, Amtrak may require a completely
different business model. Contracting out food and beverage services offers the greatest
potential for cost reductions; nevertheless, this change to the business process would be
complex and risk prone. Consequently, this option should be approached in a
structured, methodical manner.




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   9
Significant Activities



   Passenger Rail Investment and Improvement Act of 2008: Accomplishments and
   Requirements that Deserve Consideration for Future Authorizing Legislation
   (Audit Report No. OIG-A-2014-003, January 9, 2014)
   Amtrak has made significant progress implementing the Passenger Rail Investment and
   Improvement Act of 2008 (PRIIA) by addressing 24 of the 29 assigned provisions. The
   company continues to work on incorporating eight categories of information that were
   not fully addressed in its last five-year financial plan, among other things. Amtrak has
   not had to react to three provisions because the events that trigger a response have not
   yet occurred. Additionally, we identified three areas that provide opportunities for
   savings and improved performance service quality.

           Amtrak, with Department of Treasury’s assistance, has successfully completed
            restructuring its debt on 13 capital leases, saving about $173 million; however,
            the authorization for this provision expired in October 2010. Amtrak, with
            Treasury’s assistance, could reduce its costs and federal subsidy requirements by
            about $393 million ($282 million in present-value dollars) from FY 2014 through
            FY 2019 if this provision is reauthorized.

           In July 2013, the U.S. Court of Appeals for the D.C. Circuit ruled that the
            performance metrics and standards developed under PRIIA were not
            enforceable. This ruling invalidated the metrics and standards, eliminating those
            that measure on-time performance and the requirement to incorporate metrics
            and standards into the operating agreements with host railroads. It also
            eliminated the authority for the metrics and standards to be unilaterally reissued
            absent new authorizing legislation.

           Additional time and resources are needed to fully implement the Northeast
            Corridor state of good repair plan, the Northeast Corridor infrastructure and
            operations improvements, and the compliance requirements of the Americans
            with Disabilities Act. Reauthorizing the reporting requirements in these three
            provisions would provide information to stakeholders to help make informed
            decisions to execute these long-term efforts.




   10         Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                          Significant Activities



The company agreed with our recommendation that it fully address the requirements
for the annual five-year financial plan. We also reported that Congress may want to
consider the three areas that present opportunities for savings and improved
performance and service quality in future authorization legislation.

Ongoing Work—Train Operations and Business
Management
Follow-up Audit on Progress in
Achieving Compliance with the
Americans with Disabilities Act
(ADA). Our objective is to assess
the ADA program progress toward
achieving its goals with a focus on
addressing issues raised in our prior
report related to program
management weaknesses.


                                                              Demonstration of new ADA bridge plate prototype.
                                                                                           Photo: Amtrak OIG


Governance
Yard Employees Leave the Premises before the End of Their Shift
October 2013 (Investigations)
We conducted an investigation into an allegation that employees of the Los Angeles
yard were receiving overtime pay for overtime that was not worked. We selected three
employees of the Los Angeles yard for review. We found that these three employees left
the yard approximately 15 minutes before the end of their assigned shifts. It was
determined that supervisors allowed yard engineers and conductors 20 minutes of “tie-
up” time to perform various tasks. With more than 30 employees in these work
assignments, the time lost by employees leaving the premises and not using the time for
“tie-up” purposes could potentially be substantial. The matter was brought to
management’s attention. Management reaffirmed to all crew members that they were
not to leave Amtrak property prior to their authorized end time.
      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   11
Significant Activities



   Theft of PCard Information from Amtrak Employee
   November 2013 (Investigations)
   As reported in our previous semiannual report, our investigation revealed that an
   Amtrak employee used her Amtrak Procurement Card (PCard) to reserve a conference
   room at the Union Station Business Center. An employee of another company located
   inside the Union Station Business Center used the Amtrak employee’s PCard number to
   make purchases at Bloomingdales, Neiman Marcus, Macy’s, and to purchase basketball
   tickets and online adult entertainment. The individual was arrested and subsequently
   pled guilty to one count of identity theft and one count of attempted forgery. In
   November 2013, he was sentenced on both counts to 120 days’ incarceration, sentence
   suspended. He was placed on three years’ supervised probation and was ordered to
   make restitution of $4,480 and to pay $100 to the Victims of Violent Crime
   Compensation Fund.

   Amtrak Employee was Formally Counseled for Not Cooperating with the OIG
   November 2013 (Investigations)
   Our prior semiannual report noted that an Amtrak Train Attendant reported an on the
   job injury over two months after the alleged event, claiming she tripped and fell while
   climbing the stairway aboard her assigned car. The employee filed a civil suit for
   $300,000. It was determined that the employee was not truthful in her deposition, and
   did not disclose medical treatment she had previously received for shoulder pain prior
   to the alleged accident at Amtrak. The suit was subsequently settled for $17,000.
   Additionally, the Railroad Retirement Board gave the employee $12,342 in sickness
   benefits and she received $11,538 from Trustmark, a union supplemental sickness
   benefit plan. The district attorney declined prosecution. We made numerous attempts to
   coordinate an interview with the employee. Eventually the employee appeared with a
   union representative for interview, but refused to answer questions. The employee
   received a letter of Formal Counseling for failing to follow Amtrak’s policy to cooperate
   and comply with requests of the OIG.

   Overbilling by Amtrak Contractor
   December 2013 (Investigations)
   We conducted an investigation into overbilling on the Amtrak Sanford Station
   Renovation Project and found that a contractor billed Amtrak for hours that were not

   12       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                          Significant Activities



supported by documentation. Additionally the contractor added $9 per hour on all
work performed by one subcontractor. The contractor reimbursed Amtrak for $2,277
that was overbilled.

Fraudulent Activities Related to Purchasing Tickets
February 2014 (Investigations)
In prior semiannual reports, we noted that our investigative work disclosed that two
individuals used numerous stolen credit cards to purchase Amtrak train tickets in
Greensboro, NC. The individuals relocated to New York where they were arrested.
One individual pled guilty in North Carolina General Court of Justice to multiple
counts of identity theft, unlawfully obtaining credit cards and financial fraud. He was
sentenced to 56-68 months’ incarceration, of which all but 36 months was suspended.
He was ordered to pay restitution of $3,000 to Amtrak and to pay $2,958 in court costs
and attorney fees. During this reporting period a codefendant pled guilty to 6
misdemeanor counts of financial fraud and was sentenced to 12 months’ probation and
ordered to pay a fine of $679.

Contractor Falsified Engineering Credentials
March 2014 (Investigations)
In conjunction with the Department of Transportation OIG, we investigated allegations
that a former employee of an Amtrak contractor falsified his engineering credentials.
The former employee, a field inspector on the Thames River Bridge project for Amtrak
in 2008, provided Amtrak’s contractor with a falsified diploma for a degree in Civil
Engineering from the University of Vermont, as well as falsified credentials from the
National Institute for Certification in Engineering Technologies. These credentials were
not properly verified by the contractor. Amtrak paid $109,000 for the work performed
by the falsely credentialed field inspector. Amtrak engineering determined that another
field inspector conducted the same types of inspections on a different shift so the
inspections of the falsely credentialed inspector did not entail critical safety issues. The
falsely credentialed field inspector also worked on other projects funded by the
Department of Transportation. He was arrested in March 2014, based on a warrant
issued in the State of Connecticut Superior Court for larceny in the first degree. Civil
litigation is ongoing against Amtrak’s contractor.



      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   13
Significant Activities




   Ongoing Work—Governance
   Top Management and Performance Challenges. Our objectives are to (1) identify
   Amtrak’s top management and performance challenges, and (2) assess the ongoing and
   planned management initiatives to address those challenges.

   Monitoring the Work of Amtrak’s Independent Public Accountant Conducting the
   Fiscal Year (FY) 2013 Financial Statement Audit. Our objective is to determine whether
   the Independent Public Accountant (IPA) performed the audit of Amtrak’s
   Consolidated Financial Statements in accordance with generally accepted government
   auditing standards, and to follow up on prior recommendations made to the Audit and
   Finance Committee and Chief Financial Officer.

   Monitoring the Work of Amtrak’s Independent Public Accountant Conducting the
   FY 2013 A-133 Audit. Our objective is to determine whether the IPA performed the
   single audit in accordance with generally accepted government auditing standards and
   the Office of Management and Budget Circular A-133.

   Data Analytics Review of Travel Cards. Our objectives are to (1) assess the
   effectiveness of internal controls in the company’s business processes; (2) identify
   opportunities to control risks and improve efficiency and effectiveness of business
   operations; and (3) prevent, detect, and deter fraud, waste, and abuse in the company.

   Data Analytics Review of Payment Terms and Discounts. Our objectives are to
   (1) assess the effectiveness of internal controls in the company’s business processes;
   (2) identify opportunities to control risks and improve efficiency and effectiveness of
   business operations; and (3) prevent, detect, and deter fraud, waste, and abuse in the
   company.

   Data Analytics Review of Materials Management. Our objectives are to (1) assess the
   effectiveness of internal controls in the company’s business processes; (2) identify
   opportunities to control risks and improve efficiency and effectiveness of business
   operations; and (3) prevent, detect, and deter fraud, waste, and abuse in the company.




   14       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                          Significant Activities



Data Analytics Review of Injury Claims. Our objectives are to (1) assess the
effectiveness of internal controls in the company’s business processes; (2) identify
opportunities to control risks and improve efficiency and effectiveness of business
operations; and (3) prevent, detect, and deter fraud, waste, and abuse in the company.

Allegation That Assistant Track Supervisor Falsified Overtime. We received an
allegation that an Assistant Track Supervisor falsified overtime for himself and a few
favored employees. A check of overtime revealed that the assistant track supervisor
received more overtime than others in his group, but there was insufficient indication of
fraud. A referral was made to management to determine if the overtime amounts were
appropriate for this crew. Our report is currently under review by management.

Information Technology (IT)
Amtrak Computers Used to Access Pornography
March 2014 (Investigations)
We received information from Amtrak’s Chief Information Security Officer that Amtrak
computers were inappropriately used to access pornography, including possible child
pornography. We seized two computers which were examined forensically. The
forensic examination found that the computers accessed or attempted to access
pornographic websites using three Amtrak employees’ logon information. More than
300 pornographic images were downloaded and stored on the hard drive. We did not
substantiate the initial allegation regarding child pornography. One employee declined
to be interviewed and voluntarily resigned. The remaining two employees were
dismissed as the result of a company hearing.

Human Capital Management
Former Ticket Clerk Charged With Insurance Fraud
January 2014 (Investigations)
Our prior semiannual report noted the investigation of a former Amtrak ticket clerk
who was charged with extensive disability insurance fraud in San Diego Superior
Court. The former employee submitted claims to several insurance companies and she
received sickness benefits from the Railroad Retirement Board. The former employee
was found guilty on 29 criminal counts including insurance fraud, tax evasion, and false

      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   15
Significant Activities



   claims submitted to the Railroad Retirement Board. When she subsequently failed to
   appear in court for her sentencing a warrant was issued for her arrest. She was
   sentenced in abstentia to 20 years, 4 months’ incarceration and ordered to pay $920,134
   in restitution, including $21,228 to the Railroad Retirement Board. She was also fined
   $100,000 and ordered to pay court fees of $2,082. In July 2013, she was arrested in
   Rosarita Beach, Mexico and was extradited to San Diego. In January 2014, she was
   sentenced to an additional 2 years, 8 months’ incarceration for failure to appear in court
   and was ordered to pay a fine of $560 and special assessments of $224.

   Safety and Security
   Passenger Engineer Uses Cell Phone While Operating Locomotives
   December 2013 (Investigations)
   We received an allegation that a passenger engineer on the Long Distance Business Line
   in Amtrak’s Central Region was using his cell phone while operating Amtrak
   locomotives. Our investigation revealed that the engineer sent text messages, pictures,
   and audio messages to an individual while operating a locomotive. Two text messages
   showed sexually explicit photographs of the engineer. The engineer’s employment was
   terminated as the result of a company hearing.

   Ongoing Work—Safety and Security
   Safe-2-Safer. The objective of this evaluation is to review how Amtrak’s Safe-2-Safer
   program has been implemented, identify the resources devoted to the program, and
   determine the extent to which the goals of the program have been achieved.

   Survey of Amtrak’s Security Programs. Our objective is to develop information on the
   security program’s objectives, scope, costs, and results. We will use that information to
   identify areas for more detailed audits. We will brief appropriate officials as our work
   progresses and at the conclusion of our survey work.




   16       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                          Significant Activities




Asset Management

Ongoing Work—Asset Management
High-Speed Rail Business Case. The objective of this evaluation is to determine the
extent to which Amtrak is incorporating sound business practices in developing its
business case for high-speed rail equipment.

Fleet Utilization. The objective of this evaluation is to determine the extent to which
Amtrak effectively and efficiently utilizes its fleet of locomotives and passenger
equipment.




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   17
                                                                Capitol Corridor Train 532 at Pinole, CA
                                                             Photo: Amtrak Corporate Communications




18   Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                         Actions to Continuously Improve OIG Operations




Actions to Continuously Improve
OIG Operations
The Amtrak OIG has been working with Federal Management Partners, Inc. (FMP) to
conduct a human capital needs assessment—with the goal of defining the ideal future
state of our organization for the next several years and to develop a targeted strategy to
close any gaps between the current and future states. The assessment concluded that
some restructuring would help
ensure the effectiveness and
efficiency of future operations.
FMP’s report included
recommendations intended to
address the perspectives it gathered
on succession planning, career
development and performance-
based pay. FMP briefed the
executive team on the results of the
assessment in late 2013 and we have
implemented a number of actions to
address the topics covered by the
                                         Inspector General Tom Howard, Assistant Inspector
assessment.
                                                        General for Audits Dave Warren, and Assistant
                                                        Inspector General for Investigations Adrienne Rish.
                                                        Photo: Amtrak OIG



      Organizational restructuring. We built upon prior efforts by completing or
       initiating additional organizational restructuring to help ensure the effectiveness
       and efficiency of future operations—including eliminating the position of
       Deputy Inspector General, creating a Chief Mission Support Officer position, and
       establishing a Chief Human Capital Officer position.




       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   19
Actions to Continuously Improve OIG Operations



           Succession planning. We completed the initial steps in implementing a
            succession planning process by identifying critical positions and options for
            backfilling them.

           Leadership and development. We established a cross functional team of Senior
            Directors to make recommendations on career paths, training, leadership
            development, and an individual development planning process.

           Performance-based compensation. We developed a framework for merit
            increases and used it to award pay increases based on FY 2013 performance.

           Awards system. We established a cross functional team of Senior Directors to
            make recommendations for an annual OIG awards program.

   In addition, we are in the process of consolidating the Audits and Inspections and
   Evaluations groups. Doing so will allow maximum flexibility in customizing the
   optimal team for engagements, improve efficiency and increase consistency in
   developing reports, and leverage our technical experts on a wider variety of products.




   20         Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                 Empire Builder in flowers
                                                                 Photo: Amtrak Corporate Communications




Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   21
OIG Organization




   OIG Organization
   The OIG headquarters is based in Washington, D.C., with field offices in Boston,
   Chicago, Los Angeles, and Philadelphia.




   The Inspector General provides policy direction and leadership for Amtrak OIG and
   serves as an independent voice to Congress and the Board of Directors by identifying
   opportunities and promoting solutions for improving the company’s programs and
   operations, while preventing and detecting fraud, waste, and abuse.

   Audits. This office conducts independent and objective performance and financial
   audits across the spectrum of Amtrak’s support and operational activities. It produces
   reports on those activities aimed at improving Amtrak’s economy, efficiency, and
   effectiveness, while seeking to detect and prevent fraud, waste, and abuse.
   22       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                                 OIG Organization



Inspections and Evaluations. This office conducts independent and objective
evaluations of Amtrak programs and operations to identify opportunities to improve
cost efficiency and effectiveness, and the overall quality of service delivery throughout
Amtrak.

Investigations. This office pursues allegations of fraud, waste, abuse, and misconduct
that could affect Amtrak’s programs, operations, assets, and other resources. It refers
investigative findings to the Department of Justice for criminal prosecution or civil
litigation, or to Amtrak management for administrative action. It also develops
recommendations to reduce Amtrak’s vulnerability to criminal activity.

General Counsel. Counsel provides legal assistance and advice to OIG senior
management and supports audits, evaluations, special reviews, and investigations.
Counsel coordinates with outside attorneys, including local and federal agencies and
law enforcement attorneys, and appears in court on behalf of the OIG and its
employees.

Mission Support. This office provides expertise in financial management, procurement,
administration, information technology, and quality assurance to support OIG
operations.

Human Capital. This office ensures that the best qualified people are hired, developed,
retained, and rewarded appropriately in accordance with the OIG’s mission and values
and applicable laws, rules, and regulations. It also ensures that an effective and efficient
performance management system is implemented to provide employees with timely
and meaningful feedback on performance.




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   23
                                                     Cascades train races into the sunset
                                              Photo: Amtrak Corporate Communications




24   Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                                                                   Appendix 1


              Appendix 1                             Fiscal Year 2014 Performance
                                                     Measures (10/1/2013 – 3/31/2014)

           Audit/Testimony Results                                                               Investigative Results
Reports/Testimony Issued                                            4
                                                                     a                                 Financial Impact
Funds to Be Put to Better Use                            175,200,000
                                                                                 Recoveries/Restitution                                         $6,757
Recoveries (Audits)                                        $1,400,000
                                                                                                      Cases Opened
                                                                                 Major Misconduct and General
                                                                                                                                                   10
                                                                                 Crimes
                                                                                 Claims Fraud                                                       2
               Advisory Functions                                                Healthcare Fraud                                                   1
FOIAb Requests Received                                               13         Contract and Procurement Fraud                                     1
FOIA Requests Processed                                                6                      Judicial and Administrative Actions
Referred to Amtrak                                                     7         Indictments                                                        1
Response Pending                                                       1         Convictions                                                        3
FOIA Appeals Received                                                  1         Criminal Referrals                                                18
FOIA Appeals Processed                                                 —         Criminal Referrals Declined                                        8
Legislation Reviewed                                                   —         Administrative Actions                                             7
Regulations Reviewed                                                   —                            Investigative Workload
                                                                                 Investigations Opened                                             14
                                                                                 Investigations Closed                                             24
                                                                                                  Hotline Contacts/Referrals
                                                                                 Sent to Amtrak Management                                        139
                                                                                 Investigation Opened                                               7
                                                                                 Request from Other Law Enforcement
                                                                                                                                                    1
                                                                                 Agency
                                                                                 Customer Complaints                                               91
                                                                                 Under Review                                                       1
                                                                                 No Action Warranted                                               39


  a
      $58.4 million annually, projected over three years.
  b
      Freedom of Information Act.




                      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   25
Appendix 2


   Appendix 2                           Questioned Costs
                                        (10/1/2013 – 3/31/2014)

                      Audit Reports Issued with Questioned Costs
                                                                                               Questioned                     Unsupported
   Category                                                            Number                       Costs                           Costs
   A. For which no management decision
      has been made by the                                                       —                            $—                      $—
      commencement of the reporting period
   B. Reports issued during the reporting
                                                                                 —                             —                       —
      period
   Subtotals (A+B)                                                               —                             —                       —

   Less
   C. For which a management decision
      was made during the reporting period
      (i) dollar value of recommendations
                                                                                 —                             —                       —
           agreed to by management
      (ii) dollar value of recommendations
                                                                                 —                             —                       —
           not agreed to by management
   D. For which no management decision
      has been made by the end of the                                            —                             —                       —
      reporting period




   26        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                                                               Appendix 3


   Appendix 3                                Funds Put To Better Use (Audits)
                                             (10/1/2013 – 3/31/2014)



        Audit and Evaluation Reports Issued with Funds to be
                          Put to Better Use
   Category                                                                       Number                    Dollar Value
   A. For which no management decision
B.    has been made by the commencement of                                                  —                                  $—
      the reporting period
                                                                                                                                   a
   B. Reports issued during the reporting period                                             1                 175,200,000
   Subtotals (A+B)                                                                           1                  175,200,000

   Less
   C. For which a management decision was
       made during the reporting period
      (i) dollar value of recommendations that
                                                                                             1                  175,200,000
           were agreed to by management
      (ii) dollar value of recommendations that
                                                                                            —                                      —
           were not agreed to by management
   D. For which no management decision
       has been made by the end of the                                                      —                                      —
       reporting period
   a
       $58.4 million annually, projected over three years.




              Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |       27
Appendix 4


          Appendix 4                            Audit Reports and Testimony
                                                (10/1/2013 – 3/31/2014)
                             Listing of Issued Audit/Evaluation Reports
                                                                                                                                      Funds to be
Date            Report                                          Focus                Questioned              Unsupported                   Put to
Issued          Number          Report Title                    Area                      Costs                    Costs               Better Use
                                                                                                                                                     a
11/1/2013       OIG-A-          Food and Beverage               Train                               $—                        $—      $175,200,000
                2014-001        Service: Potential              Operations
                                Opportunities to                and Business
                                Reduce Losses                   Management
11/14/2013      OIG-T-          Food and Beverage               Train                                 —                         —               —
                2014-002        Service: Progress and           Operations
                                Opportunities to                and Business
                                Reduce Operating                Management
                                Losses
1/8/2014        OIG-A-          Passenger Rail                  Train                                 —                         —               —
                2014-003        Investment and                  Operations
                                Improvement Act of              and Business
                                2008:                           Management
                                Accomplishments and
                                Requirements that
                                Deserve Consideration
                                for Future Authorizing
                                Legislation
2/11/14         OIG-A-          Acquisition and                 Acquisition                           —                         —               —
                2014-004        Procurement:                    and
                                Gateway Program’s               Procurement
                                Concrete Casing
                                Project Progressing
                                Well; Cost Increases
                                Will Likely Exceed
                                Project Budget
       Total                                                                                        $—                        $—      $175,200,000
a
    $58.4 million annually, projected over three years.




          28         Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                                                Appendix 4




               Ongoing Audit and Evaluation Projects
Project Status                                                                           Number of Projects
Audit and Evaluation Projects In-process, as of
                                                                                                       13
10/1/2013
Projects Postponed or Canceled                                                                          1
Audit and Evaluation Projects Started Since 10/1/2013                                                   7
Audit and Evaluation Reports Issued Since 10/1/2013                                                     3
Audit and Evaluation Projects In-process, as of
                                                                                                       16
3/31/2014




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   29
Appendix 5


   Appendix 5                          Recommendations for Which
                                       Corrective Action Not Complete
                                       (Audits)
     Previous Audit Report Recommendations for Which Corrective
                    Action Has Not Been Completed
                                                                                                                             Funds to be
                                         Report                            Questioned Unsupported                                 Put to
   Audit Report                          Number/Date                            Costs       Costs                             Better Use
   Strategic Asset                       105-2010/                                         —                        —                 —
   Management Program                    January 14, 2011
   Controls Design Is
   Generally Sound, But
   Improvements Can Be
   Made
   On-Time-Performance                   403-2010/                                 519,932                          —                 —
   Incentives: Inaccurate                April 21, 2011
   Invoices Were Paid Due to
   Long-standing Weaknesses
   in Amtrak's Invoice-Review
   Process
   Americans with Disabilities           109-2010/                                         —                        —                 —
   Act: Leadership Needed to             September 29, 2011
   Help Ensure That Stations
   Served By Amtrak Are
   Compliant
   Wireless Network Security:            OIG-A-2012-003/                                   —                        —                 —
   Internal Controls Can Be              December 7, 2011
   Improved
   On-Time-Performance                   OIG-A-2012-004/                        9,151,451                           —                 —
   Incentives: Inaccurate                February 15, 2012
   Invoices Were Paid Due to
   Weaknesses in Amtrak's
   Invoice-Review Process
   Amtrak Corporate                      OIG-A-2012-007/                                   —                        —                 —
   Governance: Implementing              March 30, 2012
   a Risk Management
   Framework is Essential to
   Achieving Amtrak's
   Strategic Goals




   30       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                                                 Appendix 5


  Previous Audit Report Recommendations for Which Corrective
                 Action Has Not Been Completed
                                                                                                                            Funds to be
                                        Report                            Questioned Unsupported                                 Put to
Audit Report                            Number/Date                            Costs       Costs                             Better Use
Human Capital                           OIG-A-2012-014                                    —                        —                 —
Management: Weaknesses                  July 19, 2012
in Hiring Practices Result in
Waste and Operational Risk
Claims Program: Use of                  OIG-A-2012-016                                    —                        —                 —
Best Practices Would                    August 14, 2012
Strengthen Management
Controls
Food and Beverage                       OIG-A-2012-020                                    —                        —                 —
Service: Initiatives to Help            September 7, 2012
Reduce Direct Operating
Losses Can Be Enhanced
by Overall Plan
American Recovery and                   OIG-A-2012-021                         1,200,000                           —                 —
Reinvestment Act: Some                  September 21, 2012
Questioned Invoice
Charges and Minimal
Benefit from Duplicative
Invoice-Review Process
Annual Financial Statement              OIG-A-2012-017                                    —                        —                 —
Audits: Observations for                September 27, 2012
Improving Oversight of the
Independent Public
Accountant
Amtrak Invoice Review:                  OIG-A-2013-006                         2,115,440                           —                 —
Undetected Inaccuracies                 February 15, 2013
Resulted in Overpayments
(BNSF)
Amtrak Invoice Review:                  OIG-A-2013-008                         1,437,311                           —                 —
Internal Control                        March 26, 2013
Weaknesses Lead to
Overpayments (BNSF)
Management of Overtime:                 OIG-A-2013-009                                    —                        —                 —
Best Practice Control Can               March 26, 2013
Help in Developing Needed
Policies and Procedures
Amtrak Invoice Review:                  OIG-A-2013-010                         1,223,028                           —                 —
Internal Control                        March 27, 2013
Weaknesses Lead to
Overpayments (Metro
North)

       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |       31
Appendix 5


    Previous Audit Report Recommendations for Which Corrective
                   Action Has Not Been Completed
                                                                                                                            Funds to be
                                        Report                            Questioned Unsupported                                 Put to
   Audit Report                         Number/Date                            Costs       Costs                             Better Use
   Audit of Grant Agreement:            OIG-A-2013-012                               2,098                    9,247                  —
   Next Generation Equipment            March 27, 2013
   Committee Materially
   Complied with Terms of
   Grant Agreement
   Information Technology:              OIG-A-2013-013                                    —                        —          31,400,000
   Opportunities Exist to               April 16, 2013
   Improve Services,
   Economies, and Contract
   Performance
   Real Property Management:            OIG-A-2013-015                                    —                        —                 —
   Applying Best Practices              June 12, 2013
   Can Improve Real Property
   Inventory Management
   Information
   American Recovery and                OIG-A-2013-016                            596,345                 227,697               529,175
   Reinvestment Act:                    July 29, 2013
   Opportunities Exist to
   Recover Funds and Reduce
   Future Costs by Improving
   Procurement Policies
   Governance: Enhanced                 OIG-A-2013-018                         6,700,000                           —                 —
   Controls Needed to Avoid             September 20, 2013
   Duplicate Payments
   Governance: Most                     OIG-A-2013-019/                                   —                        —                 —
   Procurement Card Controls            September 26, 2013
   are Effective, but Some
   Need to be Strengthened
              TOTAL                                                        $22,945,605                   $236,944            $31,929,175




   32      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                                                    Appendix 6


   Appendix 6                            Recommendations for Which
                                         Corrective Action Not Complete
                                         (Evaluations)
       Previous Evaluation Reports’ Recommendations for Which
              Corrective Action Has Not Been Completed

                                                                                                                   Estimated Annual
                                            Report Number/                      Estimated Annual                    Savings Already
Evaluation Report                           Date                                        Savingsa                           Achieved
Amtrak Mechanical Maintenance               E-05-04                                       $100 million+                        $38 million
Operations                                  September 6, 2005
Amtrak Fleet Planning Process               E-06-02                                           28 million+                        4 million
                                            April 6, 2006
Facility Maintenance Program                E-06-04                                                       —                            —
                                            August 24, 2006
Human Capital Management                    E-09-03                                           23 million+                              —
                                            May 15, 2009
Amtrak’s Infrastructure                     E-09-05                                           50 million+                              —
Maintenance Program                         September 29, 2009
Training and Employee                       E-09-06                                              8 million                             —
Development                                 October 26, 2009
Operation RedBlock: Actions                 E-11-01                                                       —                            —
Needed to Improve Program                   March 15, 2011
Effectiveness
Evaluation of Amtrak’s FY 2010              E-11-02                                                       —                            —
Fleet Strategy: A Commendable               March 31, 2011
High-Level Plan That Needs
Deeper Analysis and Planning
Integrationb
Food and Beverage Service:                  E-11-03                                                       —                            —
Further Actions Needed to                   June 23, 2011
Address Revenue Losses Due to
Control Weaknesses and Gaps
Human Capital Management:                   OIG-E-2012-009                                                —                            —
Controls Over the Use of                    March 28, 2012
Temporary Management
Assignment Need Improvement




          Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |     33
Appendix 6


         Previous Evaluation Reports’ Recommendations for Which
                Corrective Action Has Not Been Completed

                                                                                                                  Estimated Annual
                                           Report Number/                      Estimated Annual                    Savings Already
 Evaluation Report                         Date                                        Savingsa                           Achieved
Mechanical Maintenance:                    OIG-E-2012-008                                                —                      —
Improved Practices Have                    May 21, 2012
Significantly Enhanced Acela
Equipment Performance and
Could Benefit Performance of
Equipment Company-widec
Strategic Asset Management                 OIG-E-2012-012                                                —                      —
Program: Opportunities to                  May 31, 2012
Improve Implementation and
Lessons Learned
Railroad Safety: Amtrak is Not             OIG-E-2012-023                                                —                      —
Adequately Addressing Rising               September 27, 2012
Drug and Alcohol Use by
Employees in Safety-Sensitive
Positions
Railroad Safety: Amtrak Has                OIG-E-2013-003                                                —                      —
Made Progress in Implementing              December 20, 2012
Positive Train Control, but
Significant Challenges Remain
 Asset Management: Integrating             OIG-E-2013-014                                                —                      —
 Sound Business Practices into             May 28, 2013
 its Fleet Planning Process Could
 Save Amtrak Hundreds of
 Millions of Dollars on Equipment
 Procurements
 American Recovery and                     OIG-E-2013-017                                                —                      —
 Reinvestment Act: Amtrak Has              September 19, 2013
 Taken Positive Steps to
 Safeguard Funds Used for
 Concrete Tie Replacement
 Program
 Corporate Governance: Planned             OIG-E-2013-020                                                —                      —
 Changes Should Improve                    September 27, 2013
 Amtrak's Capital Planning
 Process, and Further Adoption
 of Sound Business Practices
 Will Help Optimize the Use of
 Limited Capital Funds


    34       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                                                       Appendix 6


         Previous Evaluation Reports’ Recommendations for Which
                Corrective Action Has Not Been Completed

                                                                                                                      Estimated Annual
                                               Report Number/                      Estimated Annual                    Savings Already
Evaluation Report                              Date                                        Savingsa                           Achieved
Asset Management: Amtrak is                    OIG-E-2013-021                                                —                              —
Preparing to Operate and                       September 27, 2013
Maintain New Locomotives, but
Several Risks to Fully Achieving
Intended Benefits Exist
TOTAL                                                                                     $209 million+                           $42 million+
  a
      Estimated savings based on benchmarking against other organizations.
  b
   Not included in the total amount are the funds to be put to better use identified in Report E-11-02 (March 31,
  2011). Implementing the recommendations in this report would allow Amtrak to reduce its fleet requirements by
  53 cars and 25 locomotives over the 30-year planning period in Amtrak’s Fleet Strategy, resulting in a potential
  reduction of more than $520 million in procurement and overhaul costs over the lives of these additional pieces of
  equipment. Additionally, implementing the report recommendation to replace its single-level cars with multi-level
  cars would result in the additional reduction of $174 million to $679 million in procurement and overhaul costs
  over the lives of the equipment.
  c
   Not included in the total amount are the funds to be put to better use identified in Report No. OIG-E-2012-008
  (May 21, 2012). Implementing the recommendations in this report could allow Amtrak to reduce its fleet
  requirements by 120 cars and 45 locomotives, resulting in a potential savings of almost $600 million in fleet
  procurement costs over the next 15 years. However, these savings do not account for any additional costs
  potentially required to achieve this improved level of equipment availability.




             Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |       35
Appendix 7


   Appendix 7                            Review of Legislation,
                                         Regulations, and Major Policies
   Section 4(a) of the Inspector General Act of 1978, as amended, provides that the
   Inspector General shall review existing and proposed legislation and regulations
   relating to programs and operations of such establishment. Also, the Inspector General
   shall make recommendations in the semiannual reports concerning the impact of such
   legislation or regulations on the economy and efficiency in the administration of such
   programs and operations administered or financed by such establishment—or the
   prevention and detection of fraud and abuse in such programs and operations.

   We continued to work with Congress to ensure that taxpayer funds provided to Amtrak
   are protected by law from fraud, waste, and abuse by identifying legislative changes
   that would accomplish the following:

           Apply certain provisions of Title 18 to Amtrak and our office to ensure that the
            federal funding Amtrak receives is protected from fraud, waste, and abuse.

           Clarify that claims and statements made to Amtrak are considered claims and
            statements under the False Claims Act to ensure that our office has the necessary
            tools to protect the government and taxpayer dollars from fraud.

           Extend qualified immunity to OIG personnel to ensure that performance of their
            statutory duties is not hindered by the threat of litigation and liability.

           Authorize our office to take advantage of the General Services Administration’s
            programs to conserve federal resources, reduce expenses, and increase efficient
            operations.

   These proposed provisions remain essential to protecting Amtrak from fraud, waste,
   and abuse and to improving our operations.

   Additionally, as noted in this semiannual report, we published an audit report,3 where
   we identified certain areas that Congress may wish to consider in future authorization



   3
    Passenger Rail Investment and Improvement Act of 2008: Accomplishments and Requirements that Deserve
   Consideration for Future Authorizing Legislation, Audit Report No. OIG-A-009 2013, January 9, 2014.
   36         Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                                                 Appendix 7


legislation that may enhance Amtrak’s opportunities for saving and improved
performance and service quality.

      Amtrak, with Department of Treasury’s assistance, could reduce its costs and
       federal subsidy requirements by about $393 million ($282 million in present-
       value dollars) from FY 2014 through FY 2019 if a provision allowing the
       company to restructure its debt is reauthorized.

      In July 2013, the U.S. Court of Appeals for the D.C. Circuit ruled that the
       performance metrics and standards developed under PRIIA were not
       enforceable. This ruling invalidated the metrics and standards, eliminating those
       that measure on-time performance and the requirement to incorporate metrics
       and standards into the operating agreements with host railroads. It also
       eliminated the authority for the metrics and standards to be unilaterally reissued
       absent new authorizing legislation.

      Reauthorizing the reporting requirements in the provisions related to the
       Northeast Corridor state of good repair plan, Northeast Corridor infrastructure
       and operations improvements, and compliance requirements of the Americans
       with Disabilities Act would provide information to stakeholders to help make
       informed decisions to execute these long-term efforts.




       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   37
Appendix 8


   Appendix 8                          Peer Review Results

   The Dodd-Frank Wall Street Reform and Consumer Protection Act (P. L. 111–203, July 21,
   2010) requires that OIG include in its semiannual report to Congress the results of any
   peer review conducted by another OIG during the reporting period, or—if no peer
   review was conducted—a statement identifying the date of the last peer review. Also
   required is a list of all peer reviews conducted by the OIG of another OIG, and the
   status of any recommendations made to or by the OIG.

   During FY 2013, our Office of Audits was the subject of a Council of the Inspectors
   General on Integrity and Efficiency (CIGIE) peer review by the Tennessee Valley
   Authority (TVA) OIG. TVA OIG determined the system of quality control for our audit
   function has been suitably designed and complied with to provide reasonable assurance
   of performing and reporting in conformity with applicable professional standards in all
   material respects. Accordingly, TVA OIG provided a “pass” rating and made no
   recommendations. The report was released on February 14, 2013.

   Our Office of Investigations was also the subject of a peer review during FY 2013 by the
   Nuclear Regulatory Commission (NRC) OIG. NRC OIG concluded that the system of
   internal safeguards and management procedures for the investigative function of the
   Amtrak OIG in effect for the year ending February 28, 2013, was in compliance with the
   quality standards established by CIGIE and the Attorney General’s Guidelines. These
   safeguards and our procedures provide reasonable assurance of conforming to
   professional standards in the conduct of investigations.

   OIG is currently conducting a CIGIE peer review of the Department of the Interior
   OIG’s audit organization for the year ending September 30, 2013.




   38       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                                                     Appendix 9


Appendix 9                                Glossary of Terms, Acronyms, and
                                          Abbreviations4

Management Decision. The evaluation by management of the findings and
recommendations included in an audit report and the issuance of a final decision by
management concerning its response to such findings and recommendations, including
actions that management concludes are necessary.
Questioned Cost. A cost that is questioned by the OIG because of (1) an alleged
violation of a provision of a law, regulation, contract, grant, cooperative agreement, or
other agreement or document governing the expenditure of funds; (2) a finding that, at
the time of the audit, such cost is not supported by adequate documentation; or (3) a
finding that the expenditure of funds for the intended purpose is unnecessary or
unreasonable.
Recommendation that Funds Be Put to Better Use. A recommendation by the OIG that
funds could be more efficiently used if management took actions to implement and
complete the recommendation, including (1) reductions in outlays; (2) deobligation of
funds from programs or operations; (3) withdrawal of interest subsidy costs on loans or
loan guarantees, insurance, or bonds; (4) costs not incurred by implementing
recommended improvements related to the operations of the establishment, a
contractor, or grantee; (5) avoidance of unnecessary expenditures noted in pre-award
reviews of contract or grant agreements; or (6) any other savings that are specifically
identified. (Note: Dollar amounts identified in this category may not always allow for
direct budgetary actions but generally allow the agency to use the amounts more
effectively in the accomplishment of program objectives.)
Unsupported Cost. An unsupported cost is a cost that is questioned by the OIG because
the OIG found that, at the time of the audit, the cost was not supported by adequate
documentation.




4
    All definitions are from the Inspector General Act of 1978, as amended.
           Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   39
Appendix 9


   Acronyms and Abbreviations

   ADA                      American’s with Disabilities Act
   CIGIE                    Counsel of Inspectors General on Integrity and Efficiency
   FMP                      Federal Management Partners, Inc.
   FY                       Fiscal Year
   IPA                      Independent Public Accountants
   IT                       Information Technology
   NRC                      Nuclear Regulatory Commission
   OIG                      Office of Inspector General
   PCard                    Procurement Card
   PRIIA                    Passenger Rail Investment and Improvement Act
   TVA                      Tennessee Valley Authority




   40      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
                                                                                                                 Appendix 10


Appendix 10                              Reporting Requirements Index
Topic/Section          Reporting Requirement                                                                                   Page
4(a)(2)                Review of Legislation and Regulations                                                                   36-37
5(a)(1)                Significant Problems, Abuses, and Deficiencies                                                           5-17
5(a)(2)                Recommendations for Corrective Action to Significant Problems                                            5-17
5(a)(3)                Previous Reports’ Recommendations for Which Corrective Action Has                                       30-35
                        Not Been Completed
5(a)(4)                Matters Referred to Prosecutive Authorities                                                               25
5(a)(5)                Information Assistance Refused or Not Provided                                                          N/A
5(a)(6)                Audit Reports Issued in This Reporting Period                                                             28
5(a)(7)                Summary of Significant Reports                                                                           5-17
5(a)(8)                Audit Reports with Questioned Costs                                                                       26
5(a)(9)                Audit Reports with Recommendations That Funds Be Put to Better                                            27
                        Use
5(a)(10)               Previous Audit Reports Issued with No Management Decision Made                                          26-27
                        by End of This Reporting Period
5(a)(11)               Significant Revised Management Decisions                                                                N/A
5(a)(12)               Significant Management Decisions with Which the OIG is in                                               N/A
                        Disagreement
5(a)(13)               Federal Financial Management Improvement Act-related Reporting                                          N/A
5(a)(14–16)            Peer Review Results                                                                                       38




          Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |     41
                                 This page intentionally left blank.




42   Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014
              OIG MISSION AND CONTACT INFORMATION
Mission                                    The Amtrak OIG’s mission is to provide independent,
                                           objective oversight of Amtrak’s programs and operations
                                           through audits, inspections, evaluations, and investigations
                                           focused on recommending improvements to Amtrak’s
                                           economy, efficiency, and effectiveness; preventing and
                                           detecting fraud, waste, and abuse; and providing Congress,
                                           Amtrak management and Amtrak’s Board of Directors with
                                           timely information about problems and deficiencies relating to
                                           Amtrak’s programs and operations.

Obtaining Copies of                        Available at our website: www.amtrakoig.gov.
Reports and Testimony


Reporting Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                                           Web:           www.amtrakoig.gov/hotline
                                           Phone:         800-468-5469


Contact Information                        Tom Howard
                                           Inspector General

                                           Mail:          Amtrak OIG
                                                          10 G Street, NE, 3W-300
                                                          Washington, D.C. 20002

                                           Phone:         202-906-4600

                                           Email:         Tom.Howard@amtrakoig.gov




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 49 | October 1, 2013–March 31, 2014   |   43
www.amtrakoig.gov
                Pacific Surfliner at sunset
Photo: Amtrak Corporate Communications
                    National Railroad Passenger Corporation
                           Office of Inspector General
          10 G Street, NE, Suite 3W-300, Washington, D.C. 20002-4285
                               www.amtrakoig.gov



Amtrak is a registered service mark of the National Railroad Passenger Corporation
